<html>
<title> - [H.A.S.C. No. 113-122] AMPHIBIOUS FLEET REQUIREMENTS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





                                 
 
                         [H.A.S.C. No. 113-122]

                     AMPHIBIOUS FLEET REQUIREMENTS

                               __________

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             JULY 25, 2014

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     






                                 _______

                   U.S. GOVERNMENT PRINTING OFFICE
 
  89-515                   WASHINGTON : 2015
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer 
Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7017001f301305030418151c005e131f1d5e">[email&#160;protected]</a>  
                                     
  


             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                  J. RANDY FORBES, Virginia, Chairman

K. MICHAEL CONAWAY, Texas            MIKE McINTYRE, North Carolina
DUNCAN HUNTER, California            JOE COURTNEY, Connecticut
E. SCOTT RIGELL, Virginia            JAMES R. LANGEVIN, Rhode Island
STEVEN M. PALAZZO, Mississippi       RICK LARSEN, Washington
ROBERT J. WITTMAN, Virginia          HENRY C. ``HANK'' JOHNSON, Jr., 
MIKE COFFMAN, Colorado                   Georgia
JON RUNYAN, New Jersey               COLLEEN W. HANABUSA, Hawaii
KRISTI L. NOEM, South Dakota         DEREK KILMER, Washington
PAUL COOK, California                SCOTT H. PETERS, California
BRADLEY BYRNE, Alabama
               David Sienicki, Professional Staff Member
              Phil MacNaughton, Professional Staff Member
                          Katie Rember, Clerk
                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2014

                                                                   Page

Hearing:

Friday, July 25, 2014, Amphibious Fleet Requirements.............     1

Appendix:

Friday, July 25, 2014............................................    21
                              ----------                              

                         FRIDAY, JULY 25, 2014
                     AMPHIBIOUS FLEET REQUIREMENTS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Forbes, Hon. J. Randy, a Representative from Virginia, Chairman, 
  Subcommittee on Seapower and Projection Forces.................     1
McIntyre, Hon. Mike, a Representative from North Carolina, 
  Ranking Member, Subcommittee on Seapower and Projection Forces.     2

                               WITNESSES

Aucoin, VADM Joseph P., USN, Deputy Chief of Naval Operations 
  Warfare Systems (N9)...........................................     7
Paxton, Gen John M., Jr., USMC, Assistant Commandant of the 
  Marine Corps...................................................     6
Stackley, Hon. Sean A., Assistant Secretary of the Navy for 
  Research, Development and Acquisition..........................     3

                                APPENDIX

Prepared Statements:

    Forbes, Hon. J. Randy........................................    25
    Stackley, Hon. Sean A., joint with Gen John M. Paxton, Jr., 
      and VADM Joseph P. Aucoin..................................    27

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
      

                     AMPHIBIOUS FLEET REQUIREMENTS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
            Subcommittee on Seapower and Projection Forces,
                             Washington, DC, Friday, July 25, 2014.
    The subcommittee met, pursuant to call, at 9:04 a.m., in 
room 2118, Rayburn House Office Building, Hon. J. Randy Forbes 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. J. RANDY FORBES, A REPRESENTATIVE 
     FROM VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. Forbes. Today the subcommittee convenes to receive 
testimony on amphibious ship requirements. I want to welcome 
our distinguished witnesses and appreciate your time and 
efforts to this most important issue. Specifically, I want to 
welcome the Honorable Sean Stackley, Assistant Secretary of the 
Navy for Research, Development and Acquisition. Mr. Stackley, 
thank you so much for your service to the country, and thank 
you for continuing briefing this committee and testifying and 
giving us the benefit of your expertise.
    General John M. Paxton, Jr., Assistant Commandant of the 
Marine Corps. General, thank you for your service and all the 
Marines do for us.
    And Admiral Joseph P. Aucoin, Deputy Chief of Naval 
Operations, Office of Naval Operations Warfare Systems. 
Admiral, thank you so much for all that you do.
    We thank you all for being with us today on this very 
important hearing. And as we continue what many of us believe 
to be the dismantling of the world's greatest fighting force, 
it is worth considering the critical role played by the U.S. 
Marine Corps in protecting and sustaining national interests 
far from our shores.
    Alongside the other elements of American naval power--
dominant surface and submarine forces, and the world's most 
mobile and lethal form of airpower--the Marines represent a 
middle-weight force designed to project land power from the 
sea.
    I continue to have reservations about the direction of the 
capacity and capabilities of our fleet, and specifically our 
amphibious power-projection capabilities. I would note that the 
Navy and Marine Corps have both agreed that the amphibious 
fleet of 38 ships is necessary to support two Marine 
Expeditionary Brigades, but because of fiscal constraints, this 
administration is planning to acquire 33 amphibious ships.
    I would further note Secretary Stackley stated earlier this 
year before this subcommittee that a plan for 33 ships 
introduces some risk in terms of being able to provide the 
total lift for a major combat operation. The Navy and Marine 
Corps have agreed that that is an acceptable risk.
    I think that we need to provide the capabilities that our 
combatant commanders need and look forward to better 
understanding the risk that our Nation is accepting in not 
providing this full complement of amphibious ships.
    I also understand that the Navy and Marine Corps team wants 
to build 11 LX(R) amphibious ships to replace the 12 Whidbey 
Island and Harpers Ferry-class Dock Landing Ships. An analysis 
of alternatives to consider various options is ongoing. I agree 
with Secretary Stackley that this next class of ships needs to 
be developed within an affordable budget top line, and look 
forward to better understanding the various options that the 
Navy is considering and the timeline for finalizing this newest 
class of ships.
    Finally, I want to highlight that our committee authorized 
for appropriations $800 million and provided incremental 
funding authority to start construction of LPD-28 [landing 
platform/dock]. As I noted before, I think the amphibious fleet 
is an important capability for national security, and it 
appears that three of the four defense committees supported 
this effort. I look forward to understanding how the Department 
intends to move forward with this important project and take 
advantage of the incremental funding authority that appears to 
be provided by the Armed Services Committee.
    I would be remiss if I did not acknowledge the challenges 
that the entire shipbuilding account will have with the 
development of Ohio-class replacement submarines that will be 
coming online concurrent with the LX(R) class ships. We need to 
work to see the development of the Ohio-class replacement 
submarine funded as a national strategic asset by the 
Department of Defense so that it does not crowd out important 
shipbuilding capabilities like the amphibious program.
    With that, I turn to my good friend and colleague and the 
ranking member of the subcommittee, the gentleman from North 
Carolina.
    [The prepared statement of Mr. Forbes can be found in the 
Appendix on page 25.]

 STATEMENT OF HON. MIKE MCINTYRE, A REPRESENTATIVE FROM NORTH 
    CAROLINA, RANKING MEMBER, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. McIntyre. Thank you, Mr. Chairman, and thanks to you 
gentlemen for your service to our country and for being with us 
on an early Friday morning, and taking the time to come share 
with us your thoughts on the topics today.
    I know today we will be hearing testimony, Mr. Chairman, 
from both the Navy and Marine Corps, and as we look at the 
amphibious fleet, I want our gentlemen to know we want to know 
how we can best support the mission, that Congress can support 
what you are doing with our amphibious fleet. The Marine Corps 
represents our Nation's response force that does enable us to 
respond anywhere around the world on short notice, and there is 
no question that the Marines have been critical to our forces 
in our presence in both Iraq and Afghanistan.
    We also want to make sure the Marines are not being seen as 
a second land force, but rather an amphibious-based 
expeditionary force true to the mission of the Marines. And in 
doing so, we want to carefully examine what that force should 
look like, whether the appropriate number of amphibious ships 
are available, and what is the most capable platform for moving 
marines ashore.
    It has been established the Marine Corps requires 38 
amphibious ships to conduct the two Marine Expeditionary 
Brigades' forcible entry mission. The Navy and Marine Corps 
have agreed they can meet this requirement with 33 ships with 
acceptable risk. What I would like to know is whether or not 
there are other ways to mitigate the risk of a smaller 
amphibious fleet? Does the Joint High Speed Vessel or Mobile 
Landing Platform help in that regard, or will the different 
design options for future amphibious ships have an impact on 
that number?
    We know that there is support for a 12th LPD-17. It is 
important for this committee to have a clear understanding of 
how an additional LPD procurement may affect other shipbuilding 
programs.
    We also want to understand the acquisition strategy for the 
LX(R) program and whether existing ship designs could meet that 
requirement while also reducing the overall cost, or if a 
completely new design is the best approach. It is important to 
maintain competition, and I am encouraged to see that the plan 
for the LX(R) program as well as the next LHA [Landing 
Helicopter Assault].
    Whether it is a crisis response, or a disaster, or 
humanitarian relief, or forward presence, we know that our Navy 
and Marine Corps amphibious capability is a vital asset for the 
United States and one that we must continue to maintain. And I 
know the chairman and I share in our commitment to do 
everything we can to make sure you are provided with the 
equipment and the resources and the ships that you need to be 
able to fulfill that mission and do the great job that the 
United States Navy and the United States Marine Corps do.
    Thank you for being here today. We look forward to hearing 
your testimony, and may God bless you and your families for 
their sacrifice and your service.
    Thank you, Mr. Chairman.
    Mr. Forbes. Thank you, Mike.
    And, Mr. Secretary, it is my understanding you are going to 
start us off. So we look forward to your remarks.

STATEMENT OF HON. SEAN A. STACKLEY, ASSISTANT SECRETARY OF THE 
         NAVY FOR RESEARCH, DEVELOPMENT AND ACQUISITION

    Secretary Stackley. Yes, sir.
    Chairman Forbes, Representative McIntyre, Representative 
Palazzo, thank you for the opportunity to appear before you 
today to address Navy and Marine Corps amphibious fleet 
requirements. And joining me today are General Paxton, the 
Assistant Commandant of the Marine Corps, and Vice Admiral 
Aucoin, the Deputy Chief of Naval Operations. With the 
permission of the subcommittee, I would propose to keep opening 
remarks brief and submit a formal statement for the record.
    Mr. Forbes. Without objection, all of the written remarks 
will be made a part of record.
    Secretary Stackley. Thank you, sir.
    Today 99 ships, about one-third of our fleet, and over 
75,000 sailors and marines are deployed around the world. 
Another 63 ships are underway conducting local operations, 
testing, training, and preparing to deploy. Five of our big-
deck amphibious assault ships are underway, including the 
Navy's newest ship in the first of her class, the America. The 
sixth big-deck is forward-deployed in Japan, and 4,600 marines 
of the 22nd and 31st Marine Expeditionary Units are deployed 
aboard amphibious ships operating off coasts from Africa to 
Japan, conducting air operations, ship-to-shore operations, 
supporting Operation Enduring Freedom, building partnerships, 
deterring enemies, and responding to crises and contingencies.
    They place in the hands of our Nation's leaders tools and 
options to respond to today's world events and shape future 
events. And to say that they are the best at what they do 
doesn't do them justice, for amongst the world's fighting 
forces, none other can do what they do.
    It is our responsibility to Congresses and the Departments 
to place in their hands the best weapons this Nation can 
produce to shape, deter, defeat, and deny our enemies. 
Accordingly, the seamless maneuver of marines from the sea to 
conduct operations ashore, whether for training, humanitarian 
assistance, or combat, remains a key priority as the Department 
of the Navy shapes its future force. And to this end, from the 
STOVL [short take-off and vertical landing] version of the 
Joint Strike Fighter to modernized attack and utility 
helicopters, to the development of the heavy-lift helicopter 
CH-53K, we are recapitalizing critical Marine aviation 
capabilities.
    From the Joint Light Tactical Vehicle to the Amphibious 
Combat Vehicle and upgrades to the legacy Amphibious Assault 
Vehicle, we are modernizing the Marine Corps' tactical 
vehicles. We have extended the service life of our landing 
craft and are developing the next ship-to-shore connectors, and 
we are fielding the next generation of Marine Corps 
expeditionary command, control, and communications 
capabilities, the G/ATOR [Ground/Air Task Oriented Radar] 
radar, Common Aviation Command and Control System, and Global 
Communication Support System.
    Underpinning this expeditionary capability is our effort to 
sustain and build our force of amphibious ships. Our amphibious 
fleet requirements are defined in a report submitted to the 
Congress by the Chief of Naval Operations and the Commandant in 
2009 stating, ``The force structure to support 2.0 Marine 
Expeditionary Brigade lift is 38 amphibious assault ships.'' 
Understanding this requirement, and in light of the fiscal 
constraints with which the Navy is faced, the Department of the 
Navy will sustain a minimum of 33 amphibious ships in the 
assault echelon. This 33-ship force accepts risk in the arrival 
of combat support and combat service support elements of the 
Marine Expeditionary Brigade, but has been adjudged to be 
adequate in meeting the needs of the naval service within 
today's fiscal limitations.
    With the recent deliveries of the Somerset and the America, 
today's amphibious force stands briefly at 32 ships: 10 big-
deck amphibs [amphibious assault ships], 12 LSD 41/49 [Landing 
Ship, Dock] ships, and 10 LPD-class [Amphibious Transport Dock] 
ships. Numerically, with the retirement of the LPD-4 and LHA-5 
in 2015, and delivery of ships currently under construction, 
LPDs 26 and 27, and LHA-7, we will reach 33 amphibs in 2018. 
However, a shortfall in big-deck amphibs will persist until we 
deliver LHA-8, which does not start construction until 2017 and 
delivers in 2024.
    The LHD class and future LHA class are the backbone of the 
amphibious force, providing the capacity and command and 
control critical to the expeditionary group commander for ship-
to-shore air and surface operations. The new LHA-6 and future 
LHA-7 add significant aviation capability to the force, 
appropriate to the introduction of the Joint Strike Fighter. 
Flight I to the LHA-6 class, commencing with LHA-8, will strike 
a greater balance between vertical and horizontal lift 
capabilities.
    As you would expect, by every measure, lift, command and 
control, mobility, survivability, and quality of life, the LPD-
17 class is vastly superior in capability to the LPD-4 class 
she replaces, and more so the LSD-41 class that the Navy is 
drawing plans to replace commencing in the 2020s.
    Whether conducting missions in peacetime or combat, LPD-17 
provides greater employment options to the operational 
commander, and now a requirement for 11 of these ships, 1 per 
amphibious ready group, provides the group commander greater 
flexibility to split these ships out to operate independently.
    Meanwhile, we are currently evaluating alternatives for the 
future amphibious ship, LX(R), which we need to build in the 
decade of the 2020s and 2030s, in order to replace the LSD-41/
49 class. In doing so, we are carefully weighing the lift 
capacity the force needs, arguably greater than the lift 
capacity of the LSD-41/49 class due to increased weight of 
today's more-armored vehicles; the combat capability the ship 
will require; and the cost with which the future Navy can 
realistically bear during a period that we all understand will 
bring great pressure to our shipbuilding budget.
    And so when we weigh these factors, we are also mindful of 
the health of our industrial base and the pressures on our ship 
construction and modernization accounts. The fact is amphibious 
shipbuilding is in a valley during the gap between completion 
of the LPD-27 and start of construction of the LX(R). And as we 
struggle today with unfunded core requirements, issues well 
familiar to this subcommittee, the Navy does not have the 
headroom during this period of budget downturn to place ships 
above core on order to address the industrial base concerns.
    That said, shipbuilding is a top priority for the Navy, and 
we, the Navy and Marine Corps, hope that in working with the 
Congress, which alone has the authority to provide and maintain 
a Navy, that our budget requirements, our operation 
requirements, and our industrial-base requirements will be 
carefully weighed as you consider the impact of the Budget 
Control Act caps on the future force.
    Mr. Chairman, thank you for the opportunity to appear 
before you today. We look forward to answering your questions.
    [The joint prepared statement of Secretary Stackley, 
General Paxton, and Admiral Aucoin can be found in the Appendix 
on page 27.]
    Mr. Forbes. Mr. Secretary, thank you so much.
    General.

     STATEMENT OF GEN JOHN M. PAXTON, JR., USMC, ASSISTANT 
                 COMMANDANT OF THE MARINE CORPS

    General Paxton. Thank you, sir.
    Chairman Forbes, Ranking Member McIntyre, and Congressmen 
Palazzo and Peters, thank you and all of the members of the 
subcommittee for the opportunity to address the Department of 
the Navy amphibious fleet requirements as it relates to your 
United States Marine Corps in our enduring requirement to 
remain our Nation's forward-deployed crisis response force. 
Sir, I will keep my remarks very brief given that we have a 
written statement that you have graciously accepted, and we 
thank you for that, sir.
    So today, as always, your Marine Corps is committed to 
providing a balanced air-ground logistics team with the 
requisite qualities of responsiveness, scalability, and self-
sustainment. Inherent in these traits is a synergy that is 
created from being both amphibious and expeditionary as 
components of a naval force.
    The Navy and Marine Corps team provides a fundamental 
pillar of our Nation's power and security, and has done so 
since Thomas Jefferson sent marines and sailors to fight the 
Barbary pirates off North Africa in 1805, over 200 years ago.
    As we look forward to the future we all realize that sea-
based and forward-deployed naval forces provide day-to-day 
engagement, crisis response, and assured access to our global 
commons. A critical component in building, training, and 
maintaining an expeditionary forward presence is the quantity, 
availability, and readiness of our amphibious ships. This 
necessity has been demonstrated routinely with the advent of 
new security challenges as we collectively face new challenges 
around the globe.
    In actuality, our need far exceeds our capacity. As 
testimony earlier this year indicates, our combatant commander 
requirements, as well as independent amphibious warship 
demands, greatly exceed the 38 ships that we have talked about 
as the assault element for the two MEBs [Marine Expeditionary 
Brigades], which is the stressing case for the operational 
plans. This day-to-day demand will not diminish. Instead we 
expect it will likely increase since amphibious ships and their 
expeditionary forces provide unmatched versatility and 
capability that is of much use to our combatant commanders.
    Realizing this, the Marine Corps created a Special Purpose 
MAGTF, [Marine] Air-Ground Task Force, and has positioned that 
in key strategic areas in the European and African littorals. 
These forces, however, right now are land based, and they are 
not immune to the time and space realities, or what we call the 
tyranny of distance. An example of this was for the U.S. 
Embassy in Juba last December, and we had a special mission 
there, and in order to accomplish that, we launched MV-22 
aircraft from allied nations in Southern Europe. We actually 
were able to execute a mission and extract some U.S. personnel 
and assist the embassy, but the mission took 3,270 miles and 
over 15 hours. That MAGTF subsequently redeployed elsewhere on 
the African Continent.
    While successful in the mission accomplishment, these 
forward-deployed elements, however, are necessarily limited in 
both operational reach and sustainability once they are on the 
objective. As we gather here today, crisis response forces are 
literally sitting on their packs elsewhere around the world to 
launch within hours of a mission tasking. They are postured 
this way in order to mitigate limiting factors of both time and 
distance throughout those multiple geographic combatant command 
areas of responsibilities.
    The existence and the success of these forces, however, is 
a direct indicator of the paucity of our amphibious ships. With 
additional amphibious ship quantities and availability, the 
Navy and Marine Corps team will be able to rapidly respond to 
crises around the world, and the security will be greatly 
enhanced. For this reason we ask for continued congressional 
support for the Navy shipbuilding program. As Mr. Stackley 
said, that includes ship-to-shore connectors and the 
maintenance capability that we need to keep the modern fleet 
ready. Doing so will enable us to remain naval and 
expeditionary, and be able to project the United States power 
around the globe, and to secure our interests and the country 
whenever and wherever we need it.
    I thank all of you for your faithfulness to our Nation and 
request that our written testimony be accepted. And I look 
forward to your questions, sir. Thank you.
    [The joint prepared statement of General Paxton, Secretary 
Stackley, and Admiral Aucoin can be found in the Appendix on 
page 27.]
    Mr. Forbes. Thank you, General.
    Admiral.

STATEMENT OF VADM JOSEPH P. AUCOIN, USN, DEPUTY CHIEF OF NAVAL 
                OPERATIONS WARFARE SYSTEMS (N9)

    Admiral Aucoin. Chairman Forbes, Congressman McIntyre, 
distinguished members of the HASC [House Armed Services 
Committee] Seapower committee, it is an honor to appear before 
you and testify on amphibious fleet requirements. I echo what 
Secretary Stackley said and also the ACMC [Assistant Commandant 
of the Marine Corps], so I will keep my opening remarks short, 
only to make two points first.
    First, my job is relatively new, and my role as the Deputy 
Chief of Naval Operations for Warfare Systems, I am responsible 
to the Chief of Naval Operations for supporting and 
establishing, integrating and resourcing Navy warfighting 
requirements across the range of expeditionary, surface, 
undersea, and air warfare.
    Second point is just to say we thank you very much. We 
appreciate the support Congress has shown in supporting the 
amphibious force. The PB15 [President's Budget for fiscal year 
2015] plan represents the most responsible effort to balance 
resources with requirements, affordability, and the industrial 
base considerations. It attempts to balance shortfalls in 
amphibious warfare ships, large surface combatants, and attack 
submarines until the force structure assessment objectives are 
met.
    Thank you.
    [The joint prepared statement of Admiral Aucoin, Secretary 
Stackley, and General Paxton can be found in the Appendix on 
page 27.]
    Mr. Forbes. Thank you, Admiral.
    First of all, I want to say that I believe you probably 
have staff represented behind you that do such a good job, and 
to all of them, we want to thank you for your work in making 
sure all of this continues moving in the right direction. And 
thank you for the hours you put in doing that and serving your 
country.
    This is an incredibly bipartisan subcommittee. We have good 
working relationships with each other. Mr. McIntyre, my ranking 
member, and I are very, very close partners in this. And so I 
want to yield to him to begin asking the questions, and I will 
defer my questions until the end.
    Congressman McIntyre.
    Mr. McIntyre. Thank you, Mr. Chairman, and thank you for 
your commitment and strong leadership of this subcommittee. I 
will be brief in light of the compressed time we have on a 
Friday morning.
    Admiral, with LH-8 now being planned to include a well 
deck, can you explain some of the steps the Navy has taken to 
reduce the risks associated with a major design change like 
that?
    Admiral Aucoin. Well, I will speak briefly, and I am sure 
Secretary----
    Mr. Forbes. Admiral, is your microphone on?
    Admiral Aucoin. Can you hear me?
    Mr. Forbes. Yeah. Just keep that mike up kind of close.
    Admiral Aucoin. We know, Congressman McIntyre, that the 
Marines want the well deck put back in there, and design 
efforts are underway right now between the shipyards to 
incorporate that along with the large aviation requirements 
associated with that flight deck. But we still have got a ways 
to go on those design efforts, a couple more years, before we 
finalize the design.
    Secretary Stackley. Let me just add several pieces to that. 
First is getting the requirements right and nailing down a 
technical baseline associated with that--those requirements 
that are feasible and you have got the right level of risk and 
maturity. You have got that balance down. And so that is what 
we are doing right now.
    As you go to LHA-8 what we are actually doing is we are 
going back to a well deck. So the details associated with a 
well deck inside of that hull format are well understood. The 
requirements that we are pinning down in further detail today 
are the new capabilities that come with a Flight I to this new 
ship class. So we are being very careful to ensure we don't 
overreach in terms of those requirements, and to balance out 
both the aviation side and then the surface side, the well deck 
side, as we do that redesign. That is the requirement side.
    We brought in industry into this early stage of design to 
help us go from defining the requirements to constructing what 
we would call a contract design, and that is the design that we 
would actually put on to contract. So we have both the two 
shipbuilders that would be competing for this at the table with 
us working through this next phase to take a look at 
feasibility, how best to complete the contract design, and also 
how to go after some cost reduction initiatives in the process.
    So we think we have it about right in terms of stable, 
realistic requirements; leveraging a mature prior class design, 
the LHD class; and then bringing industry in early before we 
push out the contract design for competition.
    Mr. McIntyre. Thank you.
    Thank you, Mr. Chairman.
    Mr. Forbes. Thank you, Mike.
    The gentleman from Mississippi is recognized for 5 minutes.
    Mr. Palazzo. Thank you, Mr. Chairman.
    Gentlemen, thank you all for being here today. I want to 
thank you for your service to our Nation; also coming here, 
taking time out of your busy schedules to lend us your 
expertise on the amphibious force structure and to answer some 
of our questions.
    I also want to thank your families for their sacrifices. I 
know that is sometimes overlooked and forgotten.
    I think it is pretty clear to everybody in this room and to 
Congress that our intent is to fund the LPD-28, or an 
additional LPD-17-class ship. This committee authorized $800 
million in multi-
year procurement. I think the Senate authorizing committee did
$650-, and the Senate Appropriations Committee did $800 
million, so it is absolutely clear the intent is that Congress 
wants the 12th ship in the LPD-17 class.
    I think it is extremely important as well, and the 
Commandant has expressed a huge amount of interest on these 
ships, calling these ships the Swiss Army knives of the fleet. 
And they are capable of doing multiple things, and, you know, 
not only just projecting force, but serving as a deterrent; 
also being able to providing humanitarian assistance, 
evacuations, and the list goes on.
    So, General Paxton, could you kind of elaborate, and, in 
your view, what has the Marine Corps--what are the amphibious 
assault assets today, and what do you think they are going to 
need moving forward?
    General Paxton. Thank you, sir. And, again, great 
colleagues here beside us, so there is a good work amongst the 
Navy and Marine Corps team on the way ahead.
    In this particular case, we happen to be the ones who are 
trying to articulate the requirements in order to do that power 
projection, knowing full well--and I will come back to this at 
the end--that we have some fiscal constraints and caps there, 
and I will defer to Secretary Stackley to articulate what this 
means in terms of the overall shipbuilding program.
    In terms of the requirements, as I tried to allude to in 
the comments, 38 amphibious ships is the stressing case for the 
simultaneity of two operations plans, and we can talk about 
that in a more classified environment, but that represents the 
assault echelon of two expeditionary brigades, which is what we 
need for, again, the two operation plans. What we understand, 
though, is in the day-to-day environment, it is the currency 
and the simultaneity of the demands from the five geographic 
combatant commanders that stress our force on a day-to-day 
basis. So, sir, see if I can answer both of those.
    There is a hard-fast requirement for 38 ships to do the two 
MEB assault echelon requirement. We agreed, at least in paper 
and as recently as 2009, that we can live within fiscal 
constraints for 33. Built into that, the math of that equation 
is a 90 percent availability of the ships; that there is always 
10 percent that are in maintenance.
    We struggle under the existing number of ships today, and 
the Navy, despite great work, is always challenged to get ships 
into the maintenance cycle. So as we have things go on around 
the world, in Yemen, in Libya, in Syria, in the hurricanes and 
tornadoes and super typhoons, and Haiyan in the Pacific, we are 
repeatedly asked to respond to those. We are ready to do that, 
but it breaks the maintenance cycle, and that is what stresses 
the force.
    So when we responded last November to Super Typhoon Damayan 
in the Philippines, we had marines from the 3rd Marine 
Expeditionary Brigade on B-22s and en route to the Philippines 
in somewhere between 5 and 6 hours. But it took us several 
weeks to get two ships out of the maintenance cycle out there, 
and I want to be on the record that Admiral Harris and Admiral 
Thomas did great work to get them out of the yards and get them 
down there, but there were two others we couldn't get there. 
And we knew by doing that, though, we were going to break the 
maintenance cycle for those ships, and that would further 
degrade the responsiveness of the 31st MEU [Marine 
Expeditionary Unit] in the Western Pacific area.
    So that is yet another case, just as the Special Purpose 
MAGTF and the move to Juba earlier that just shows the case 
there, the position now where not only the paucity in numbers, 
but the maintenance requirements in an aging fleet stresses the 
use of that. And consequently, the Navy and Marine team who was 
forward deployed and ready to do things is always challenged to 
get there fast enough, to stay long enough, and to be able to 
reset so that we can get the ships back into maintenance.
    Mr. Palazzo. I have another question, but I will probably 
run over my time if he tries to answer.
    All right. Well, General Paxton, the recent Navy 30-year 
shipbuilding plan discusses the building of the LX(R). What 
capabilities do you need in this ship to best support the 
Marine Corps mission?
    General Paxton. Yeah, thank you, sir.
    When we tried to articulate requirements, and I am sure all 
of the members of the committee, given your great experience 
and your fine support for us, understand, there is five 
fingerprints a lift, so we are looking about the number of 
individual marines you can put on a ship with their personal 
equipment, and that is fingerprint number one. We are looking 
at vehicle spots to get rolling stock on and off the ship. We 
are looking at cube and square for those vehicles and for 
cargo. And then, most importantly, looking for deck spots for 
aviation, for rotary-wing aircraft, and then well deck spots 
for connectors and ship-to-shore movers, whether it is an AAV 
[Assault Amphibious Vehicle] or LCU [Landing Craft Utility], 
LCAC [Landing Craft Air Cushioned].
    We are trying to balance all five fingerprints of those 
lifts, and as Secretary Stackley said earlier, we have great 
design records from previous ships, and we understand the trade 
space between a flight deck, a well deck, and number of people, 
but how we maximize those five capabilities, how we do it 
within existing cost constraints is the challenge for all of 
us.
    So as the Marine Corps, we will try to articulate what we 
actually need, given changes in technology, to get the marines 
and their equipment ashore. We are trying to hold down the 
weight of our vehicles, but the weight of vehicles continues to 
increase. We are trying to hold down the size of the aircraft, 
but the wingspan continues to increase. As we get great 
capability from our V-22s, we are now trying to make sure the 
V-22, like the CH-46, is detachment capable, which means you 
have an independent maintenance capability with them.
    So all of these create stressors on the design of the ship, 
and we are trying to make sure that the ability to project, 
launch, recover, and sustain the force can be done within the 
design capability of the ship and the cost that we are afforded 
or the moneys that we are given. So doing this within the 
challenge of Virginia and Ohio-class replacement and 
everything, even as marines, we understand the challenge the 
Department is under. So we are grateful for the support that 
you show.
    But I will now defer here to Secretary Stackley. We know 
that we are probably going to need more money, to be honest 
with you, above TOA [Table of Allowance Requirements] to make 
sure the amphibious ship portfolio can sustain while we are 
doing submarines and surface-class combatants.
    Thank you, sir.
    Mr. Forbes. We thank the gentleman for his questions. His 
time is expired. I think that this subcommittee recognizes that 
that funding for the LPD would not have been in there without 
his hard work and also the gentleman from Virginia, chairman of 
the Readiness Subcommittee, who both worked very, very hard to 
make sure that was done.
    The chair now recognizes the gentleman from California for 
5 minutes, Mr. Peters.
    Mr. Peters. Thank you, Mr. Chairman.
    I don't have a lot of questions. I just want to acknowledge 
that I appreciate the professionalism and the care you are 
taking to deal with the constraints of the financial 
circumstances, and I want to express my thanks for you doing 
that.
    Also, I am conscious that we have another issue coming up 
next year with sequester, and I think that that is a 
fundamental thing that this body has to deal with to give you 
the support you need, and we have to avoid that again. So I 
want you to know that that is on my mind, and I appreciate all 
you are doing to deal with the constraints that--and I hope 
that we will inject more rationality from the congressional 
perspective into the budgeting in the future.
    Thank you. I yield back.
    Mr. Forbes. The gentleman yields back.
    The gentleman from Virginia, chairman of the Readiness 
Subcommittee, Mr. Wittman is recognized for 5 minutes.
    Mr. Wittman. Thank you, Mr. Chairman.
    I thank all of our panelists today for joining us. Thank 
you so much for your service to our Nation.
    Secretary Stackley, let me begin with you. I want to talk 
about the LX(R) program and get your perspective on that and 
how do we put in place both the efficiencies from a cost 
standpoint, but also operational efficiencies in making sure 
that we, as you stated earlier, put to task the lessons learned 
from the past.
    Would it make sense for us to use the LPD hull form in 
extending the LX(R) into a faster operational phase, looking at 
LPD-28 as the bridge to that, and, obviously, the elements of 
maintaining the industrial base? But give me your perspective 
on using that as an existing hull form and the advantages that 
that would bring, or possibly the other challenges it might 
bring.
    Secretary Stackley. Yes, sir. Let me try to wrap this all 
together, the advantages of reuse of the LPD hull form, the 
affordability issues that we are challenged with, and then the 
specific requirements that LX(R)--that we are drafting on 
LX(R).
    As the ACMC described globally in discussing the LX(R) as a 
replacement for the LSD-41/49 class, we have to first and 
foremost ensure that the LX(R) provides the lift capacity that 
the Navy and Marine Corps team needs. And if you look at what 
the LSD-41/49 provide today, it is LCAC spots that we are going 
to have to replace. They bring a lot of cargo, a lot of cargo 
cubed, which is not a shortfall issue so much as vehicle 
square. So vehicle space, LCAC well deck spots, and then flight 
deck capacity. So if you look at that, that is exactly what the 
LPD-17 provides.
    Now, the reality is LPD-17 provides a lot more of that than 
the ship class that she would potentially be replacing. So what 
we have got to do, then, is moderate between the capacity of an 
LPD-17 and the cost that comes with that, and then the true 
requirements that we need for the LX(R). And that is the 
debate, the tension that is going on right now inside the 
analysis of alternatives [AOA] is trying to temper down, temper 
down those capacities with cost in mind.
    And so we are looking at several alternatives. The first 
clear alternative is you have a hot production line, you have a 
known entity in terms of LPD-17, so can you reuse it? The 
answer is the LPD-17 class will not be the LX(R), but the hull 
form does provide a well-known baseline that we are looking at 
a modified LPD-17 to see if we can drive that in the right 
direction in terms of affordability for the LX(R).
    We also are looking at foreign designs. There are a number 
of foreign designs that fix--fit an LX(R) mission profile. So 
those are on the table as well. This would not be to repeat 
those designs. Frankly, it would require some sort of teaming 
agreement between our industrial base and a foreign navy that 
owns that design to see if, in fact, it could be adapted. We 
are doing that for thoroughness.
    And then you look at clean-sheet designs. Now, the beauty 
of a clean-sheet design is you can do anything with it, and it 
can cost what you want it to cost. However, in going from that 
paper design to reality, we are very mindful of the risks that 
that introduces, and, frankly, the history that we have of 
underestimating the cost and complexity of going from a paper 
to digits, to steel.
    So that is the trade space in the AOA. It is bringing those 
clean set of requirements in that the Marine Corps require for 
the lift capability, looking at those alternatives, and 
figuring out across that family of alternatives how do we drive 
this into an affordability box that we set for the program.
    Mr. Wittman. General Paxton, let me get your perspective on 
that, too. You talked about the requirement set; that is, space 
on board, what it would be used for. And give me your overall 
thought about, just as Secretary Stackley talked about, the 
whole scope of what you are looking at, existing hull forms, 
new hull forms. Kind of give me your thought about what you 
believe the LX(R) ought to resemble when it becomes a complete 
design.
    General Paxton. Thank you, sir.
    Yeah, we are, we being the Marine Corps, are huge fans of 
the LPD-17. It has capability that we have not had before. It 
has capacity that we have not had before in terms of well deck, 
flight deck, marines, everything. So the opportunity to 
continue that hull form or something similar to it has great 
operational advantage to us. It gives us the ship-to-shore, 
sovereign launch and recovery capability that we need. It gives 
us maintenance capability that we need. It gives us command-
and-control capability for disaggregated operations in case we 
have to split up that Marine Expeditionary Unit in two or three 
different locations.
    So in terms of the responsiveness, the versatility, the 
sustainability, the LPD-17 is a great platform. So how we 
capture the value of that platform and some of those key either 
forcing functions or limiting factors. For example, the 
Secretary and I were talking earlier about just command and 
control, and we have greatly enhanced command-and-control 
capability with the LPD-17 that we didn't have before. So the 
ability to maintain that skill set and those capabilities on 
the LX(R) is important to us, sir.
    Mr. Wittman. Thank you, Mr. Chairman. I yield back.
    Mr. Forbes. Thank you, Mr. Wittman.
    Gentlemen, once again, thank you for being here. And, Mr. 
Secretary, you made a statement that I don't think I am 
paraphrasing incorrectly that Congress alone has ability to 
maintain a Navy. Did I misstate that, and if so, correct me on 
that.
    Secretary Stackley. Sir, what I am quoting is article I, 
section 8.
    Mr. Forbes. I am not disagreeing with you. I am with you.
    Secretary Stackley. Yes, sir.
    We can set our requirements forward to the Congress in 
terms of a budget request, but we rely on the Congress to bring 
the budget that----
    Mr. Forbes. I am with you. And the reason I say that is not 
because I differ with you, but because I agree with you. 
Congress alone has that ability and that responsibility to 
maintain a Navy. We do not, I do not, intend to lighten that 
responsibility. I don't intend to delegate that responsibility, 
and I sure, by God, don't intend to fail in that 
responsibility. And to do that, we realize that you guys 
oftentimes have to look at your resources, you have to consider 
alternatives, you have to evaluate risk, and then you make a 
decision over there and come over here and say, this is the 
decision we made.
    But since it is our responsibility, the reason we sometimes 
have to pound on you, as you have mentioned, like an anvil is 
because we have got to make those decisions ultimately, and we 
have got to know those same risks that you evaluated, those 
same alternatives, those same budgetary things so that we make 
sure we are not failing in that responsibility. And so that is 
why sometimes we have to dig deep on these questions and ask 
them, and sometimes it is not a pleasant process any more than 
it is a pleasant process when you guys are having to deal with 
it over there.
    But in light of that, I want to come back, if I can, and, 
General, you have stated this very articulately, but just to 
help me understand this a little bit better, to go from the 38 
to the 33, it is my understanding that we have acceptable risk. 
I don't ever know what that term means, you know. And we can 
sometimes get caught in requirements and those kind of things, 
but it would be true if you had 38 of these ships, there would 
be times that you wouldn't have enough. I mean, you know, you 
could have a situation where you still wouldn't have enough. 
Obviously, with 33, there are going to be times that you won't 
have enough. So that I can tell my colleagues and share this 
with them in a better picture, give me the risk that we are 
accepting to go from 38 to 33.
    General Paxton. Thank you, sir.
    It is always a challenge to articulate risk whether it is 
significant, moderate; whether it is acceptable or not. As I 
tried to say earlier, it is a dual challenge here. It is both--
excuse me--the number of ships, the strict number of them, and 
then also their operational availability given the maintenance 
period that is in the yard.
    Let's say we have accepted the requirement for 33 ships. 
That includes a search capability for coming out of the yards. 
It includes, as Secretary Stackley said, perhaps some new ships 
that may be in the process of commissioning or older ships 
decommissioning, so that the analogy would be sometimes we bank 
on seven consecutive miracles. So that if you do have a 
stressing scenario in one country, or, as I said earlier, the 
scourge of simultaneity in two countries, we are dependent upon 
getting a ship out of a maintenance cycle, bringing a newly 
commissioned ship into the fray early, keeping the ship that we 
are going to decommission longer into the fight.
    So those are the stressors on the system. And they 
consequently stress our sailors and marines to get that ship 
ready to go into the fight, or to keep its maintenance 
capability up if it needed a long and sustained period in the 
yards.
    So in a short answer, sir, the ships get there slower. We 
are not sure they can stay on station as long as they can. They 
go through Herculean efforts on the parts of individual marines 
and sailors to keep them operationally ready. And then there is 
an inherent and included risk that they can't stay on that 
station that long; that they have to get back, sir.
    Mr. Forbes. That is a good synopsis.
    Mr. Secretary, we've talked about the LPD, and you have 
been very clear on that. I think the gentleman from Mississippi 
has a little bit of an interest in that issue, too. And as he 
pointed out, we have anticipated an additional $800 million on 
that.
    When does the Navy anticipate using that incremental 
funding authority if that ultimately passes both Houses, which 
I think it will, and can you address a little bit your concerns 
about the industrial base that we are looking at with 
amphibious ships now?
    Secretary Stackley. Yes, sir. It is difficult to answer 
that first question because with the--I will call it advanced 
procurement and incremental funding that has been provided by 
Congress, either in 2014 or in the various versions of the 
bills in 2015, we are still a billion-plus short of the funding 
requirements for another LPD-17-class ship. And that billion-
plus has to enter into a budget process where we have got other 
bills that are, frankly, higher priority.
    And I will just use the carrier. We had a hearing where we 
talked about the refueling of the carrier. We are working that 
inside of that budget and others that are competing for that 
space. So we have got competition to go into the budget and add 
these priorities at the same time we have got all of the risk 
associated with sequestration on the back end.
    So I cannot look at you today and give you a sense of 
confidence that the Navy is going to be able to budget that 
additional billion-plus in PB16. Now, we are halfway through 
the process, and there is going to be a lot more movement 
between now and when the budget comes over to the Hill. But the 
challenges are huge in terms of being able to fund the balance, 
and absent that full funding, not necessarily 1 year, but using 
the incremental authority, we can't move forward in terms of 
contracting for a ship. We have got to show the funding in the 
budget, and so that is the paradox that we have got today.
    So we greatly appreciate your intent and the support for 
the ship, but we are still well short of the funding required 
to place that ship under contract.
    Now, in terms of the industrial base--and here is where it 
is critical, because all of the points that the ACMC has made 
regarding 38 versus 33 and where we are today, the reality is 
if we put an LPD-28 under contract in 2016, it wouldn't enter 
the fleet until the 2022, 2023 timeframe. So that is not a 
near-term fix to a present shortfall to the 33 amphib 
requirement, but it is an immediate fix to a valley that the 
amphibious shipbuilding industrial base is marching into during 
this period, as I described, between the completion of the LPD-
26 and 27, the last of those two lines, and the start of the 
LX(R) replacement, which isn't until the 2020s. So you are 
looking at a 5-, 6-, 7-year period where that industrial base 
is being drawn down to the only amphibious ships that will be 
in construction will be the LHA class, so specifically the LHA-
7. It will be at its low point going back 25 to 30 years, and 
that is a concern for the Navy.
    Mr. Forbes. And, Secretary, I appreciate your hard work in 
monitoring that industrial base because all too many people, 
you know, in Congress they believe this is like a faucet. We 
turn it on and turn it off whenever we want to. But if we don't 
have the industrial base there, we can't turn it back on if we 
need to down the road. Is that a fair statement?
    Secretary Stackley. Absolutely. There are a couple of key 
points on this. One is the skilled labor. You have got to be 
concerned about skilled labor, losing the skilled labor during 
that valley and then imagining that it will be available when 
you need to climb back out of that valley.
    The likelihood is that we will be dealing with green labor, 
new entrants to the shipbuilding workforce. That is going to 
require training, and also going to have a lot of learning 
curve that goes along with that.
    Mr. Forbes. So that can increase your cost and your time of 
production?
    Secretary Stackley. Yes, sir.
    And the other reality in terms of any major manufacturing 
process, facility, company is the impact on overheads. When you 
lose a business base like that, your overheads go up, and that 
makes it extremely difficult to invest back into your 
facilities, to recapitalize, to modernize, to go after the 
efficiencies that we all need.
    Mr. Forbes. Good.
    And I just have one more question, and I see Mr. Courtney 
has arrived, too. We know that the LX(R) is scheduled to 
replace some of our amphibious ships, and the LX(R) will have 
less capability than the LPD-class amphibs. The Navy has 
recently completed an analysis of alternatives, as I understand 
it, and cost is a significant driver in the threshold 
requirements for the LX(R).
    Can you just provide the subcommittee with some of the 
options that were considered in the analysis of alternatives 
for the LX(R) program, and just a short, capsulized version of 
the pros and cons associated with the various options?
    Secretary Stackley. Yes, sir. First, I wouldn't say that 
the AOA is complete. This is an iterative process. The team has 
come forward with--I will call it--first pass on details. And 
we sit down, we hammer them with questions, go back for a 
second pass. We are about on the third pass right now.
    The alternatives that we looked at, as I was describing 
earlier, the first clear one is using the hot production line, 
and starting with an LPD-17 hull form, and then looking at how 
you can effectively descope some of the capabilities and also 
some of the cost drivers, go after the cost drivers, to get the 
LPD-17 hull form with the lift capacities that we need for 
LX(R) inside of affordability box that we have set for the 
program.
    The second is a clean-sheet design. All AOAs include a 
clean-sheet design. So you would start with a list of lift 
capabilities that you need, and then other enabling 
capabilities, speed, command-and-control capabilities, that 
need to be added to the platform. And then now you are dealing 
with a more parametric approach towards determining what size, 
what shape, what cost you would be in for a new design LX(R). 
And that does bring with it all of the risks associated with a 
new start program in terms of how well do you understand the 
requirements that you just put down on paper? What does that 
carry forward in terms of risk regarding either the technology 
that you are planning on employing or the costs that come with 
that?
    And then the third is to take a look at other existing 
designs or concepts. And I described the foreign designs, and 
we are going through those dutifully to understand--you know, 
we have got all of the glossies. Now we are digging down into 
the details in terms of, okay, are they really designed for the 
level of survivability that we would plan on including in our 
future LX(R)?
    And then you have the hybrids. You start to take a look 
at--well, honestly, we took a look at does an MLP, which has 
incredible lift capacity, does that potentially play for the 
roles and missions of an LX(R)?
    So there has been a very broad field of alternatives that 
we have looked at and all of the trades that go with what 
degree, what level of capability, what are the risks either in 
terms of operational risks or in terms of cost or technology 
that you are anticipating, and then what are the costs that 
come with that, and necking down to a smaller number of 
alternatives that we are, again, trying to drive into that 
affordability box that we have got to hit.
    Mr. Forbes. Thank you, Mr. Secretary.
    Mr. Courtney is recognized for 5 minutes.
    Mr. Courtney. Thank you, Mr. Chairman, and thank you to the 
witnesses for being here.
    Secretary Stackley, can you clarify the intent behind the 
2002 MOU [memorandum of understanding] and the more recent 2009 
MOA [memorandum of agreement], commonly referred to as swap 1 
and swap 2, and how the procurement of LPD-28 could impact 
those two agreements?
    Secretary Stackley. Yes, sir. So in 2002, the industrial 
partners associated with the LPD-17 program were effectively 
split apart as a result of various mergers and acquisitions. So 
Bath Iron Works and Avondale Shipyard were teamed on LPD-17. 
Avondale was acquired by Litton, which was acquired by Northrop 
Grumman, and then all of a sudden we found ourselves with two 
competitors inside of one program, and it wasn't working out 
well.
    So we looked at what we referred to as ``the swap.'' And 
with then Northrop Grumman and General Dynamics, we swapped 
workload across contracts where Bath Iron Works permanently 
exited the LPD-17 program in exchange for the LPD-17 ships that 
it was awarded under contract and within its teaming agreement, 
which were four--they were going to build four LPD-17-class 
ships. So they permanently exited, and then there was a one-
for-one swap. An LPD-17 would go down to Northrop Grumman, and 
in exchange a DDG-51 would go to Bath Iron Works in the 
simplest of terms.
    So in executing that swap agreement, three LPD-17s have 
been placed under contract at Avondale and Ingalls, and in 
exchange, an additional three DDG-51s went to Bath Iron Works. 
And the language describes that if a fourth LPD goes to--is 
awarded to Avondale Ingalls, then a fourth DDG-51 would go to 
Bath Iron Works. That is as simply as I can put it.
    In 2009, there was a separate similar type of swap 
agreement, but in that case it was reorganization of the DDG-
1000 program, and it restated that that swap agreement did not 
impact the existing 2002 swap agreement. So what that would 
mean, frankly, is if another LPD-17-class ship was awarded to 
Huntington Ingalls Industries [HII], then there is an 
equivalent balancer that would be due to Bath Iron Works.
    That agreement is between the Navy, General Dynamics, and 
HII, and if it came down to another LPD-17 being awarded, then 
we would sit down with industry to figure out how to best make 
it right.
    Mr. Courtney. Thank you. That is all.
    Mr. Forbes. Gentlemen, thank you once again for being here. 
As I said in our meeting before this meeting, I want to make 
sure you get everything you need on the record. There may be 
some questions that you think are important to have on the 
record that none of our Members have asked at this time, or 
perhaps some things that you think might have been 
mischaracterized so far. So if I can give you what time you 
need to sum up in those comments now, and, Admiral, if you 
don't mind, we will start with you and work our way back--give 
the Secretary just a minute to pause. He has been talking a lot 
here, so----
    Admiral Aucoin. Yes, Mr. Chairman, I appreciate the 
opportunity.
    As was mentioned, there is an AOA ongoing. We are doing 
this iteratively. And it is no surprise, the LPD-17 is 
something the Marines would like, the Commandant's been on the 
record for saying that, and we would like to accommodate that. 
But cost is a major driver, and the LPD-17 is cost-prohibitive 
at $2 billion.
    But there is money in there for advanced procurement. There 
is some money there for incremental funding. If we could use 
some of that advanced procurement to look at ways to bring down 
the cost, as seed money to help bring down the design cost, to 
use that hull form, similar to what we did with the Virginia-
class submarine--we put seed money in there, and the cost and 
the schedule both have profited from those inputs to bring it 
below cost and on schedule for a Virginia-class submarine. If 
we could do that for this, I think it would go a long way. The 
CNO mentioned that when he was here in March, and I think that 
would help us a lot. That is all, sir.
    Mr. Forbes. Thank you, Admiral.
    General.
    General Paxton. Thank you, Chairman. Just two points if I 
may, sir. First is we talked about the 38 and 33, and I talked 
about the demand signal and the driver being the simultaneous 
operations plans. I would just like to reiterate again for the 
record the challenge of what we now call the new norm, which is 
the various hot spots around the world.
    The utility of any amphibious ship and in particular the 
LPD-17, as we said, the Swiss Army knife, it is even more 
important in the new norm because of the disaggregated ops and 
the way we ask either a split ARG/MEU [Amphibious Ready Group/
Marine Expeditionary Unit] or a single ship steamer to go out 
and respond. So things like day-to-day and currency and 
improvements of command and control, the C2 sweep, perhaps an 
ISR [intelligence, surveillance, and reconnaissance] 
capability, those are the stressors in the day-to-day 
environment.
    And using that as a segue, the second point is, and I 
believe it was Mr. McIntyre before he left talked about a use 
of the JHSV [Spearhead-class Joint High Speed Vessel] and the 
MLP [Mobile Landing Platforms], and those are great platforms 
with great capability, and we are amenable to taking a look at 
how they may be used in certain circumstances. But if you go 
back to the stressor and the op plan, we are fairly adamant 
that those are in addition to as opposed to in lieu of 
capabilities just because of their survivability and the 
stressors of a fight. So more than amenable to looking at 
those, and we appreciate Congress' funding of those, but we are 
always a little bit reluctant to introduce those into a 
stressing operation plan.
    Thank you, sir.
    Mr. Forbes. General, you also mentioned, I think, earlier 
about the COCOM [combatant command] requirements and where they 
were. And there is always a gap between our COCOM validating 
requirements and what we can meet. Is that gap growing or 
decreasing?
    General Paxton. Sir, due to the nature of the world, the 
demand signal is indeed growing, and we are trying to figure 
out how we can keep pace with that. And that is, of course, one 
of the stressors on all of the services and on all of our 
programs of record, if you will.
    Mr. Forbes. If you looked at that gap, is it increasing 
because of the increased demands from the COCOM, or is it 
increasing because we can't meet as many of the requirements as 
we were meeting before, or a combination of both?
    General Paxton. I believe it is a combination of both, sir. 
As some of the fragile nation states devolve, and as the global 
war on terrorism increases, then there is a higher demand 
signal up there.
    And then in addition, as Secretary Stackley said, because 
of the age of our platforms, and because of the maintenance 
requirements in getting them back in, we are either unable to 
respond as quickly, or unable to stay as long. Or if we do, 
because we are in the habit of saying yes and meeting 
operational requirements, so if we go early and stay the same 
length, then we know we have degraded capability and extended 
our maintenance period that we are going to have to do later, 
sir.
    Mr. Forbes. Thank you, General.
    Secretary, once again, thank you for all your help with the 
subcommittee. We depend on you a great deal for your input, and 
we would love to hear any closing comments you might have.
    Secretary Stackley. Yes, sir, very briefly. We are spending 
a great deal of time on requirements today in terms of 
amphibious force requirements, but, more broadly, shipbuilding. 
We have three major programs that are going through analysis of 
alternatives and getting ready to go on to the next phase of 
design contract and leading to construction. T-AO(X) is first 
in the line, followed by LHA-8 and LX(R). That is good for the 
shipbuilding industrial base. In fact, we are balancing those 
programs across, frankly, our two major builders of amphibs and 
auxiliaries in a competitive environment.
    Today it is designed, we have got to get to production, but 
there is a valley in between. And of the eight Tier 1 shipyards 
that are building U.S. Navy ships, seven of the eight are going 
into a valley over that period of the next 6 to 7 years. It is 
straight math, and it is something the Members have to 
understand. So as we try to fix issues that cross from the 
shipbuilding program to shipbuilding industrial base, if it is 
going to be a zero sum, then we are basically using 
shipbuilding to fix shipbuilding, and that is a net negative.
    With regards to affordability, we have always been focused 
on affordability, but we do have this period of the Ohio 
replacement coming our way where the total shipbuilding program 
is not affordable. And we have tried to describe that very 
clearly in report to Congress.
    In that period, the 2020s out to the mid-2030s, our program 
is not affordable with the Ohio replacement laid on top, and 
that gives us problems on the ``eaches'' of each of the 
programs. But, more importantly, no one today can stare at that 
plan and predict where we will be 10, 15 years from now, except 
that if we do not fix that picture, then we will be a much 
smaller Navy.
    Mr. Forbes. Mr. Secretary, if I could just ask you one more 
elaboration not limited to the subject matter we are talking 
about today. But one of the things that I know, since you 
wrestled with this for so many years, oftentimes the public and 
policymakers believe we can ramp this up very quickly if we 
have a crisis in the world.
    With the Navy, what is unique about that, why that bothers 
you? Because I know you talked about the 2030s for our subs if 
we don't continue building what we are looking at with Ohio 
class. What message would you have that we could deliver to 
them about the difficulty of ramping things up when you talk 
about the Navy?
    Secretary Stackley. Yes, sir. On average it takes about 5 
years to build a ship, carriers longer, smaller ships less. But 
5 years is a good, solid number. When you are building, say, 10 
ships a year, it takes 30 years to build a Navy, and so you 
can't--we are living off of the ship construction of the 1980s, 
we really are. That is running to the end of its service life, 
so we have to recapitalize ships that were built--in the 1980s, 
we were building ships at about a 20-ship-per-year rate. Now, 
we are not trying to achieve the force level that we had in the 
1980s, but to sustain a 300-ship Navy, we have to recapitalize 
at a rate near what it was built at back in the 1980s. That is 
a very difficult problem financially with regards to the 
industrial base and with regards to the trades that we have got 
to make inside of our program.
    You cannot wait until you need ships to start to crank up 
the machinery. We have got to look far ahead. And, frankly, 
this is one of the beauties of the 30-year shipbuilding report 
that we turn in to the Congress. It forces everybody to look 
far ahead and recognize that decisions in shipbuilding that are 
5 to 10 years away are in front of us today.
    We have to make those decisions today to influence events 5 
to 10 years from now. And 5 to 10 years from now is that period 
of the Ohio replacement program. If we aren't making those 
decisions today, then the folks who are sitting in this hearing 
room 5 or 10 years from now, they are going to be in an 
extraordinarily different place than we are today with regards 
to our force structure, our capabilities, our ability to 
provide presence, and our ability to respond to crises.
    Mr. Forbes. Mr. Secretary, General, Admiral, thank you so 
much. Thank all your staff members for their support and help 
here. With that, we are adjourned.
    [Whereupon, at 10:12 a.m., the subcommittee was adjourned.]


      
=======================================================================




                            A P P E N D I X

                             July 25, 2014

    
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             July 25, 2014

=======================================================================

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
                                [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
